State of Louisiana
DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 94005.

BATON ROUGE
70804-9005

 

Jeff Landry
Attorney General

June 15, 2021

By electronic submission

The Honorable Scott S. Harris

Clerk of Court, Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

Re: Bobby Lee Hampton v. Vannoy (20-1686)

Dear Mr. Harris:

This Court has requested a response from Respondent, the State of Louisiana, in this matter. The brief in
opposition is currently due on July 6, 2021. The Louisiana Department of Justice recently became involved in
this petition for certiorari. Considering the importance of the issues in this capital case, the State requests an
extension of thirty days to file its response.

The new due date would be August 5, 2021.

JEFF LANDRY
ATTORNEY GENERAL
Ss
Shae McPhee
Deputy Solicitor General

cc: Seth Waxman.
